<html>
<title> - U.S. POLICY TOWARD CUBA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                        U.S. POLICY TOWARD CUBA

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 6, 2018

                               __________

                           Serial No. 115-171

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov,
                           or www.govinfo.gov

                                 
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-450PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9afdeaf5daf9efe9eef2fff6eab4f9f5f7b4">[email&#160;protected]</a> 
                                
                                 

                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere


                    PAUL COOK, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MO BROOKS, Alabama                   NORMA J. TORRES, California
RON DeSANTIS, Florida                ADRIANO ESPAILLAT, New York
TED S. YOHO, Florida                 GREGORY W. MEEKS, New York
FRANCIS ROONEY, Florida
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Kenneth H. Merten, Acting Principal Deputy 
  Assistant Secretary, Bureau of Western Hemisphere Affairs, U.S. 
  Department of State............................................     8
The Honorable Peter Bodde, Coordinator, Health Incidents Response 
  Task Force, U.S. Department of State...........................    10
Brian M. Mazanec, Ph.D., Acting Director, International Affairs 
  and Trade, U.S. Government Accountability Office...............    23

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Paul Cook, a Representative in Congress from the 
  State of California, and chairman, Subcommittee on the Western 
  Hemisphere: Prepared statement.................................     4
The Honorable Kenneth H. Merten and the Honorable Peter Bodde: 
  Prepared statement.............................................    12
Brian M. Mazanec, Ph.D.: Prepared statement......................    25

                                APPENDIX

Hearing notice...................................................    50
Hearing minutes..................................................    51
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York:
  Department of the Navy letter..................................    52
  Congressional Research Service report..........................    53
Questions submitted for the record by the Honorable Paul Cook, a 
  Representative in Congress from the State of California, and 
  chairman, Subcommittee on the Western Hemisphere...............    57

 
                        U.S. POLICY TOWARD CUBA

                              ----------                              


                      THURSDAY, SEPTEMBER 6, 2018

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:02 p.m., in 
room 2172, Rayburn House Office Building, Hon. Paul Cook 
(chairman of the subcommittee) presiding.
    Mr. Cook. All right. A quorum being present, the 
subcommittee will come to order.
    I would like to now recognize myself for an opening 
statement.
    Today we meet to consider the U.S. policy toward Cuba, a 
Communist country with a repressive regime that continues to 
actively restrict freedom of expression, association, and 
assembly, and to harass and jail Cuban citizens who seek 
freedom.
    As expected, even with the recent rise of the new President 
who is not named Castro, nothing has changed. Just this week, 
Martha Sanchez from Ladies in White was sentenced to 4 years in 
prison for peacefully protesting against the regime. Miguel 
Diaz-Canel took office without a vote from the Cuban people. 
Raul Castro continues to hold considerable sway over the 
government decisions, and the national assembly endorsed a new 
constitution in July that retains the same authoritarian 
political system and reinforces the Communist Party's control.
    Cuba maintains close relations with Russia and China, 
providing these actors with influenced platforms to form an 
anti-American agenda. Additionally, Cuba meddling in Venezuela 
and Nicaragua has contributed to increased repression and the 
mass exodus of refugees throughout the region.
    In June 2017, President Trump announced change in the U.S. 
policy toward Cuba with the issuance of the National Security 
Presidential Memorandum. This action rolled back key parts of 
the Obama administration's failed Cuban policy, tightened 
restrictions on U.S. tourism to the island, restricted the flow 
of money to the Cuban military intelligence and security 
service, and continued U.S. support for the Nation's private 
small business sector in Cuba.
    The Trump administration has continued U.S. support for 
democracy and human rights in Cuba and in calling for the 
release of political prisoners. Multiple efforts exist to 
support the critical work of human rights defenders on the 
island, communicate independent news to the Cuban people 
through the Office of Cuban Broadcasting, and increase internet 
connectivity with the State Department's internet task force. 
And I fully support these actions.
    However, given the state of Cuban destabilization 
activities in the region, and subsequent migration flow is an 
increasing regional instability throughout the hemisphere, I 
believe it is in U.S. national interest to work more with 
regional partners to curb the Cuban regime's ability to wreak 
havoc on its people and on the region.
    The U.S. should also continually update the list of 180 
prohibited Cuban entities and individuals announced last year 
to further prevent U.S. financing to Cuban regime elements, 
reestablish the Cuban medical professional parole program 
allowing Cuban medical professionals forced into modern-day 
slavery by the Cuban regime to apply for parole status in the 
United States, and to continue efforts to combat intelligence 
operations and covert activities with the Russians and Chinese, 
advocate for the return of U.S. fugitives from Cuba such as 
Joanne Chesimard, and address outstanding U.S. property claims.
    However, overshadowing all these issues are the unexplained 
health incidents that the State Department has assessed were 
targeted attacks on 26 U.S. diplomats and several Canadian 
Government personnel serving in Havana. The Cuban regime failed 
in its international obligation to protect diplomats in Cuba, 
and for that it must be held accountable. I am further 
concerned about the fact that we have yet to determine the 
cause or perpetrator of the attacks.
    The Cuban Accountability Review Board, known as the ARB, 
was submitted to Congress last week. It found that the 
Department's security systems and procedures were adequate, but 
significant vacancies and challenges with information sharing 
existed in the Department's response to the attacks.
    Similarly, the Government Accountability Office, the GAO, 
issued a recent report at the request of chairman emeritus Ros-
Lehtinen and this subcommittee that found that the Department's 
policies, procedure, process, and internal communications 
delayed the Cuban ARB from starting its work by 8 months.
    The Department's leadership, whether in a combined or 
acting role, is responsible for the safety and security of 
Americans serving overseas at U.S. missions. Twenty-six 
Americans are injured in the service to their country, some of 
them severely. In today's hearing, I also want to examine the 
Department's response to these attacks, its provision of care 
for U.S. personnel, and its plans to improve the significant 
management gaps that the GAO found.
    In conclusion, I believe the Trump administration's caution 
in staffing the U.S. Embassy in Havana is essential and prudent 
until we can determine the cause of these attacks and 
effectively mitigate it. While this decision clearly has an 
impact on Embassy operations and objectives in Cuba, that pales 
in comparison to the risks associated with putting more 
Americans in harm's way unnecessarily.
    With that, I am going to turn to the ranking member for his 
opening remarks. I just want to make one final comment in that 
we have had a busy morning, and we met with the foreign 
minister from Colombia, and we had 15 members in attendance for 
that. I want to thank everybody that was on this committee and 
the Foreign Affairs Committee, including the ranking member. We 
had a very, very productive session.
    This is ambitious today because we are going to have an 
open hearing and then we are going to go down to the sealed 
chamber, the secret chamber known as the SCIF. But in between 
that, we have a vote--or we have a number of votes, I don't 
know how many, but they are looking at, military time, I think 
it is about 1500, 1515.
    So with that, I think I have rambled long enough, and I 
will turn to my good friend, the ranking member.
    [The prepared statement of Mr. Cook follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Sires. Thank you, Chairman Cook, for holding this 
hearing. And thank you to our witnesses for being here today.
    Though U.S. policy toward Cuba has varied over the last few 
years, it is important that any policies considered take into 
account the fact that the Cuban Government has done nothing to 
garner the trust of the Cuban people or the international 
community over the last 50 years.
    This administration spoke of supporting human rights in 
Cuba, yet their proposed cuts to democracy assistance suggests 
that this is just another example of an underdeveloped policy 
that has not fully been thought through. The Cuban people have 
been suffering for far too long under the Castro regime, and 
many risk their lives every day to fight for the basic 
freedoms. The United States must continue to stand with the 
Cuban people and urge their government to respect the rule of 
law, human rights, freedom of speech, assembly, and proceed 
with free and fair elections.
    The feigned transition of power that occurred in Cuba this 
April was nominal, and we should not be under any illusions 
about who really holds the seat of power in Cuba. Miguel Diaz-
Canale was hand picked to succeed Raul Castro, who retains 
control of both the Communist Party and the military. Raul 
Castro continues to lead from the shadows leaving no room for 
any meaningful reform.
    In addition to Cuba's sordid history of human rights 
abuses, the nation continues to maintain relationship with 
questionable state actors and support corrupt regimes such as 
Venezuela's Maduro and Nicaragua's Ortega. With a proven 
pattern of despicable and dubious behavior, we should ensure 
that any policy toward Cuba does not readily offer major 
concessions to the Cuban Government.
    I look forward to hearing from this administration. And 
thank you again, Chairman, and thank everyone for being here 
today. And I yield back the balance of my time.
    Mr. Cook. Thank you very much.
    Before I recognize you to provide your testimony, I am 
going to explain the lighting system in front of you. This is 
not just for you, it is for me, because I will mess it up. My 
staff will get mad at me.
    You each will have 5 minutes to present your oral 
statement. When you begin, the light will turn green. When you 
have a minute left, the light will turn yellow. When your time 
has expired, the light will turn red, unless we lose the 
electricity. I ask that you conclude your testimony once the 
red light comes on.
    After our witnesses testify, members will have 5 minutes to 
ask questions. I urge my colleagues to stick to the 5-minute 
rule to ensure that all members get the opportunity. If we 
don't have that many members, we have a tendency to go back if 
people want to ask additional questions, and that is based upon 
what is going on.
    Our first witness to testify today will be Ambassador 
Kenneth Merten, the Acting Principal Deputy Assistant Secretary 
in the Bureau of Western Hemisphere Affairs. Previously, 
Ambassador Merten served as the Ambassador to the Republic of 
Croatia and Haiti. He also served as Deputy Executive Secretary 
to former Secretary of State Clinton and earlier to Secretary 
Rice. His overseas assignments have been in France, Belgium, 
Germany, and Haiti. In Washington, he served in the State 
Department's Operations Center as well as the Bureau of 
Economic and Business Affairs.
    Our second witness to testify is Ambassador Peter Bodde, 
Coordinator for the Health Incidents Response Task Force at the 
U.S. Department of State. Previously, the Ambassador served as 
Ambassador to Libya, Tunisia, and Nepal, and retired from the 
Department in 2017. He returned from retirement in February 
2018 to chair the Cuba Accountability Review Board, known as 
the ARB, and now the Health Incidents Task Force. He has had 
multiple overseas assignments in Iraq, Malawi, Pakistan, Nepal, 
Germany, India, Denmark, Bulgaria, Guyana, and Washington. 
Ambassador Bodde served in the State Department's Bureau of 
Diplomatic Security and Administration.
    Our last witness to testify, the Acting Director for 
International Affairs and Trade at the U.S. Accountability 
Office, GAO. At GAO, Dr. Mazanec was responsible for a 
portfolio focused on international security. He also worked in 
the GAO's Defense Capabilities and Management team.
    We are also joined by Dr. Charles Rosenfarb, the medical 
director in the Bureau of Diplomatic Services at the U.S. 
Department of State, as well as Mr. Todd Brown, the Assistant 
Director for Countermeasures in the Bureau of Diplomatic 
Security at the Department of State. Dr. Rosenfarb and Mr. 
Brown submitted written testimony and will sit on the panel to 
provide answers to many of the questions we hope will be asked.
    Ambassador Merten, you are recognized.

STATEMENT OF THE HONORABLE KENNETH H. MERTEN, ACTING PRINCIPAL 
   DEPUTY ASSISTANT SECRETARY, BUREAU OF WESTERN HEMISPHERE 
               AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Merten. Thank you very much, Mr. Chairman.
    Mr. Cook. The microphone.
    Ambassador Merten. Oh, sorry.
    Thank you very much, Mr. Chairman, Ranking Member Sires, 
and distinguished members of the committee. Thanks for the 
opportunity to speak about the administration's policy toward 
Cuba and the attacks against our diplomats, our colleagues in 
Havana.
    I am pleased to be here today with my colleagues from 
Health Incidents Response Task Force, Bureau of Diplomatic 
Security, Bureau of Medical Services, and with a representative 
of the GAO. Thanks for your concern for the safety and security 
of our diplomatic personnel in Havana, which is the 
Department's top priority.
    I will begin today by providing an overview of the 
Department's work to implement President Trump's June 16, 2017, 
National Security Presidential Memorandum strengthening the 
policy of the United States toward Cuba. And we will refer to 
that as the NSPM going forward, I think. I will then turn to my 
colleague from the Health Incidents Response Task Force, 
Ambassador Bodde, who will speak on the health attacks. I ask 
that the Department's written statement be entered into the 
record.
    The NSPM emphasizes advancing human rights and democracy in 
Cuba, reaffirms the economic embargo and the statutory ban on 
tourism to Cuba, and aims to ensure U.S. engagement benefits 
Cuban people and strengthens the Cuban private sector. It also 
maintains bilateral engagement on issues critical to U.S. 
national security and the public health and safety of the U.S. 
The Department of State has worked diligently to put this 
policy into action.
    First, despite our reduced staffing, the Department 
monitors human rights developments in Cuba and actively engages 
with members of the Cuban civil society in Havana, in 
Washington, and elsewhere. We use international fora to work 
with regional and like-minded partners to share these concerns 
and coordinate our respective approaches.
    The Department and USAID also continue to administer U.S. 
Government funded programs to promote democracy and support 
critical work of the human rights defenders on the island. 
Despite the Cuban Government's refusal to engage with us on 
human rights through a formal dialogue, we regularly speak out 
against the regime for repression and abuse, and raise these 
concerns directly with the Cuban Government.
    Second, on November 8 of last year, the Department 
published its Cuba restricted list. The Departments of Commerce 
and Treasury made regulatory changes on that same day to 
generally prohibit direct financial transactions with any of 
the 180 entities and subentities on this list. These changes 
redirect economic activity that once supported the Cuban 
military toward the Cuban private sector and the Cuban people.
    Third, the Department convened a task force to examine the 
technological challenges and opportunities for expanding 
internet access in Cuba. The Cuba Internet Task Force held its 
first meeting on February 7, and follow-on subcommittee 
meetings are taking place to develop recommendations on, one, 
the role of the media and unregulated flow of information to 
Cuba, and, two, expanding internet access in Cuba. The Task 
Force will review these recommendations and prepare a final 
report for the Secretary of State within a year.
    The Department will continue to promote a stable, 
prosperous, and free country for the Cuban people, even with 
reduced staff at Embassy Havana. In fact, that is the main 
reason we are maintaining our presence there, so we can make 
continued progress toward those goals.
    Before turning to Ambassador Bodde, I would like to 
emphasize upfront that the investigation into the health 
attacks is ongoing. There is still much we do not know, 
including who or what is behind the injuries to our colleagues.
    With that, I yield the microphone to my colleagues to 
discuss this further, and I look forward to your questions. 
Thank you very much.
    Mr. Cook. Thank you.
    Before I turn it over to Ambassador Bodde, I have to 
apologize for mispronouncing his name. When I first read this, 
I thought, well, anyone who is related to Cheyenne Bodie--and 
anyone here that is young, leave the room, because you never 
heard of that show. But it was one of my favorite shows, and I 
was obviously intimidated by anybody named Bodde or related to 
Cheyenne.
    So with that crazy introduction, Ambassador, the floor is 
yours.

  STATEMENT OF THE HONORABLE PETER BODDE, COORDINATOR, HEALTH 
    INCIDENTS RESPONSE TASK FORCE, U.S. DEPARTMENT OF STATE

    Ambassador Bodde. Thank you Mr. Chairman.
    Chairman Cook, Ranking Member Sires, and distinguished 
members of the subcommittee, thank you for the opportunity to 
testify before you on the Department of State's efforts to 
coordinate a multiagency response to the unexplained health 
attacks that have affected some members of Embassy Havana's 
diplomatic community.
    I would like to speak about two challenges outlined in the 
Department's written statement. First, the challenge of 
responding to these attacks on our personnel with so many 
significant unknowns and the challenge of providing the best 
long-term care for our impacted personnel.
    Mr. Chairman, Ranking Member Sires, my experience over the 
past 7 months serving first as the chair of the Cuba 
Accountability Review Board and now overseeing daily 
coordination of the Department and interagency activities 
leading the Health Incidents Response Task Force has given me 
an in-depth look into how the Department has responded to these 
attacks on our diplomatic community.
    As you know, 26 individuals associated with Embassy Havana 
have incurred medically confirmed unexplained symptoms and 
health effects since the Department first became aware of these 
attacks on December 30, 2016. Reported acute symptoms have 
included dizziness, headaches, tinnitus, fatigue, visual 
problems, ear complaints, hearing loss, and difficulty 
sleeping. Many of the affected personnel later developed other 
symptoms, including cognitive problems and imbalance walking.
    While the Department first became aware of these health 
complaints and an increase in Cuban harassment in late December 
2016, it was not until months later, after highly specialized 
medical testing was performed and analyzed by experts, that we 
began to understand the spectrum and severity and confirm the 
extent of the health effects. That confirmation indicated that 
these incidents went beyond routine harassments previously 
experienced by our diplomats in Havana.
    As Secretary Pompeo briefed the broader House Foreign 
Affairs Committee on May 23, the Department has also determined 
that on May 18, a single individual in Guangzhou, China, was 
found to have medical findings that were consistent with those 
of affected U.S. Government personnel in Cuba, although we are 
unable to say whether the cause is likely the same.
    Let me be clear, the Department does not currently know the 
mechanism for the cause of the injuries, the source, or the 
motive behind the attacks in Cuba or when they actually 
commenced, yet throughout this unprecedented situation, from 
the first reported health complaint through the confirmation of 
the onset of adverse related medical symptoms, U.S. Government 
medical professionals have insured that competent and 
professional care has been provided to our impacted personnel. 
They collaborate closely with the medical centers of 
excellence, such as the University of Pennsylvania Center for 
Brain Injury and Repair, the Walter Reed National Military 
Medical Center, and the National Institute of Health.
    We have also asked the Centers for Disease Control for 
their expertise to better understand what transpired in Havana. 
In order to ensure that our affected personnel have access to 
long-term workers' compensation coverage, the Department also 
works closely with the Department of Labor's Office of Workers' 
Compensation Programs.
    When we found potential gaps in the ability to care for 
those affected under current authorities, we began discussing 
with other agencies in the White House possible legislative 
language, which we will share for your consideration once we 
have an interagency consensus, to make sure our impacted 
diplomats and their families receive the care they deserve 
without incurring personal financial burden. We are also 
establishing a new position solely responsible for the longer 
term outreach in assistance to impacted personnel.
    Mr. Chairman and Ranking Member Sires, in conclusion, I 
want to assure you that we continue our effort to leverage all 
governmental, medical, investigative, intelligence, and 
scientific capabilities to address the most pressing questions 
surrounding these attacks. Your support remains a key element 
to our success. Congressional interest is crucial as we work 
diligently to identify and to understand the mechanism for the 
cause of the injuries, the motive behind these attacks, and the 
identity of the perpetrators.
    I am pleased to take your questions. Thank you.
    [The joint prepared statement of Ambassadors Merten and 
Bodde follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Cook. Thank you.
    Dr. Mazanec, before I recognize you, I want to make sure 
you don't have any relatives that made westerns circa 1950, but 
after looking at you I don't think that is obviously relevant.
    Mr. Mazanec. No, sir, I do not.
    Mr. Cook. Please, if you would testify now. Thank you, sir.

    STATEMENT OF BRIAN M. MAZANEC, PH.D., ACTING DIRECTOR, 
INTERNATIONAL AFFAIRS AND TRADE, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Mazanec. Thank you.
    Good afternoon Chairman Cook, Ranking Member Sires, 
distinguished members of the subcommittee, and staff. Thank you 
for the opportunity to discuss GAO's work on the Department of 
State's response to the health incidents in Havana, Cuba.
    As you are aware and as was just mentioned, since late 
2016, U.S. personnel and their families in Havana have 
experienced incidents associated with unusual sounds or 
auditory sensations that resulted in serious injuries.
    The unprecedented and unexplained nature of these incidents 
created some management challenges for State, as it responded 
and continues to respond. It is important to identify and 
address these challenges in order to help State improve 
security programs and practices at all overseas posts.
    First, I will be discussing our July 2018 report, which was 
released yesterday, on State's process for convening an 
Accountability Review Board, or ARB. Second, I will be 
discussing our preliminary observations on three key management 
challenges related to the unexplained nature of the incidents.
    On the first topic, we found that State does not have 
policies to ensure that its office is responsible for 
initiating a process for convening an ARB is made aware of 
incidents that may meet the ARB criteria.
    The responsible office, State's Office of Management 
Policy, Rightsizing, and Innovation, or M/PRI, starts the 
incident vetting process as soon as it becomes aware of a 
potentially qualifying incident. However, M/PRI relies on 
informal communication to identify such incidents.
    With regard to the situation in Havana, other State offices 
began responding to the incidents in January 2017; however, M/
PRI was not made aware of the incidents until 8 months later in 
mid August when a former M/PRI official contacted the office 
after seeing media coverage of the incidents.
    Officials from the responding State offices told us it was 
unclear whether the incidents met the criteria for convening an 
ARB, and thus, they did not inform M/PRI. However, it is not 
the role of State offices to evaluate whether the incidents 
meet ARB criteria before reporting them to M/PRI.
    If M/PRI is not aware of incidents, it cannot initiate 
State's ARB incident vetting process. This puts State at risk 
of not meeting statutory timeframes for convening an ARB and, 
most importantly, could result in State being less able to 
improve security at overseas posts.
    In our report, we recommended that State revise its 
policies to improve communication to M/PRI of incidents that 
may meet ARB criteria.
    The second topic I would like to discuss today is our 
preliminary observations from our broader ongoing review of 
State's response to the incidents in Cuba. To date, we have 
identified three key management challenges related to the 
unexplained nature of the incidents.
    The first management challenge relates to mitigating risk 
to U.S. personnel given the unknown nature of the incidents. 
Because the Department does not have definitive answers on the 
cause or source of the attacks, it has not been able to 
comprehensively reduce the risk of injury to personnel. 
Instead, State has taken other actions to mitigate risk, such 
as ordering the departure of family members and nonemergency 
personnel in Havana and directing all posts to review and, if 
necessary, revise their emergency action plans.
    The second management challenge we identified is caring for 
affected personnel and family members. State officials have 
made it clear that caring for affected individuals is their top 
priority. However, State has faced multiple issues in providing 
this care. For example, the Bureau of Medical Services, MED, 
lacked authority for domestic medical evacuations to send 
individuals to the University of Pennsylvania for evaluations 
and care. This issue was addressed just last week when State 
delegated full authority for domestic medevacs to MED.
    The third and final management challenge I want to 
highlight is State's communication with internal and external 
stakeholders. As mentioned earlier, State had issues ensuring 
M/PRI was in the loop as the incidents initially occurred. 
Externally, State also experienced difficulties in 
communicating with other departments and agencies in responding 
to these incidents.
    As Ambassador Bodde noted, the ARB has completed its work. 
The ARB identified some of the same challenges I just 
mentioned, and State has also established the Health Incidents 
Response Task Force in May to direct the multiagency response 
to the incidents. Both of these efforts are resulting in 
changes that may address some of these management challenges.
    As GAO continues its broader review, we will be examining 
the ARB's findings and State's ongoing response.
    Chairman Cook, Ranking Member Sires, and members of the 
subcommittee, this concludes my statement. I look forward to 
your questions.
    [The prepared statement of Mr. Mazanec follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Cook. Thank you very much.
    In the questions that come out right now, I think you are 
going to hear, I don't know, at least from me, we are somewhat 
bewildered, frustrated. You know, this goes back quite a while 
ago. When it first happened, we had some classified hearings on 
it, and no one could figure out what was going on. Ironically 
enough, I had a meeting where a number of us that were in 
Ottawa, and we were talking about trade and stuff like that, 
but I asked the same questions, since you had some folks from 
your Embassy that were involved in this. I am not saying we 
didn't get a straight answer, but I am still bewildered as to 
the origin of this.
    Obviously, the staff there was cut down quite a bit because 
of the safety concerns, and I am always somewhat worried about 
the people that are in precarious positions throughout the 
world. I think sometimes we kind of forget about how dangerous 
it is, and my own personal experiences are going back to Iran 
when that hostage situation when they seized--the Ayatollah 
Khomeini, 400 days, it was really a mess. I can go discuss 
different countries and what have you.
    The question I have is from a medical standpoint. Do you 
have any fingerprints on this who is responsible?
    We even heard allegations that the Russians might be 
involved, and this and that. And so at least from my 
standpoint, we have got a lot of--what happened on this? 
Because I am worried about the Ambassadors, but I am more 
worried about the families and everyone else that can be 
innocent bystanders to something like this. And we will have a 
policy if we can just figure out what is going on.
    Anybody want to address that rather long question?
    Doctor? Sure.
    Dr. Rosenfarb. Sir, I can speak from the medical 
perspective. We are frustrated as well. We know the 
accumulation of medical knowledge tends to be a very deliberate 
process. I can only speak to what we are trying to do to find 
out what caused the injuries.
    You know, as you read previously, the symptoms people 
presented with were vague, very common symptoms. It took some 
time to figure out that they were connected. When we put the 
information together, they appeared to be similar to the 
symptoms and findings you would see in a traumatic brain injury 
or a head concussion, but obvious head trauma. So we had to 
kind of work backwards and find out what could cause that.
    We identified the University of Pennsylvania and other 
locations to see our people, to do thorough evaluations, but 
still there is no obvious mechanism we know of that could cause 
that injury. The experts are exploring a number of 
possibilities.
    Mr. Cook. Yeah, and we will talk about that.
    Anything in the literature on this? Obviously, there is 
papers all the time, I am not saying this is going to be in the 
New England Journal of Medicine or what have you, but kind of 
like football injuries and don't let your son or your children 
get involved in this. There is nothing in the medical 
literature at all that--because it was on the front pages, it 
was big news there for a while, and no speculation from a 
medical standpoint?
    Dr. Rosenfarb. There is nothing in the old medical 
literature. Again, this is kind of what we are seeing as a 
unique syndrome. Probably you can't even call it a syndrome. It 
is a unique constellation of symptoms and findings but with no 
obvious cause. There is a lot of speculation in the media. We 
prefer not to talk about speculation. All I know is the experts 
who have examined the patients are doing everything they can to 
determine, you know, where the injuries occurred, what part of 
the brain, and what possibly could cause it.
    Mr. Cook. Thank you.
    I am going turn it over to the ranking member for his 
questions.
    Mr. Sires. Chairman, I am going to let our ranking member 
of the Foreign Affairs Committee go first because I know he has 
things to do. So, Eliot?
    Mr. Cook. I am going to apologize. I didn't see the ranking 
member hiding out down there.
    Mr. Engel. Well, thank you, Mr. Chairman. Thank you, Mr. 
Ranking Member. Participating in these Western Hemisphere 
Subcommittee hearings always feels like coming home, since I 
was the chair for a number of years about a decade ago, and so 
it is a pleasure to be here.
    I wanted to raise a few really important questions. Last 
month, I asked the Congressional Research Service to prepare a 
report for me on the impact of staff reductions at the U.S. 
Embassy Havana. I ask unanimous consent that this report be 
inserted into the record.
    Mr. Cook. Yes, sir.
    Mr. Engel. Okay. Thank you, Mr. Chairman.
    Because of the Cuba health incidents, our Embassy staff has 
been drastically reduced from 50 Americans to 18. As a result, 
we are less able to process Cuban refugees, monitor human 
rights, and assist U.S. travelers. So no matter where one 
stands on Cuba policy, I think we can all agree on the 
importance of a functioning U.S. Embassy in Havana. It is 
essential to find a balance of protecting our diplomats and 
asserting our national interests.
    In December, Chairman Royce and I sent a letter to the 
Centers for Disease Control and Prevention urging them to take 
a leading role in investigating the health incidents that 
affected U.S. personnel in Cuba. I think it is a no-brainer 
that as our Nation's top experts on health threats, the CDC 
should be at the forefront of this investigation, with the 
appropriate experts deployed in Havana.
    I was pleased that the ARB recommended, and I quote, that 
the Department engage the CDC to undertake a comprehensive 
medical study of the symptoms and clinical findings related to 
the incidents in Cuba. So I am pleased that the CDC is finally 
involved, but I am concerned and, frankly, perplexed that it 
has come so late.
    On August 16, my staff met with CDC investigators working 
on the Cuba health incidents, and they were on day four of 
their work. You heard that right. It is a year and a half after 
the first incidents took place, the CDC is only now just 
getting started.
    So I would like to ask Dr. Rosenfarb and Ambassador Bodde, 
could you explain why it took so long for the CDC to get to 
work on the Cuba health incidents? And why, on the other hand, 
did the CDC start their work on the confirmed China incident 
immediately?
    Dr. Rosenfarb. Sir, I would like to just reinforce that it 
has taken time to understand the extent of the symptoms and 
findings and injuries. You know, right now, in retrospect, we 
know what you know. Injuries happened to folks, but way back 
when these things first started appearing in December 2016 and 
over the course of the next several months, it wasn't evident 
at that time. And then our first and foremost goal was to 
provide care to those people who were injured and do 
assessments. And we accomplished that over the next several 
months, from January 2017 going forward.
    Once we felt we had people properly cared for in the fall 
of 2017, we began talking to CDC. We met with CDC informally a 
number of times in the fall of 2017, and that led to a formal 
request from the Department to CDC in December 2017 for their 
active assistance. And we have been very happy with CDC to this 
point. They have been great partners, and we hope to benefit 
from their work going forward.
    Mr. Engel. Well, let me ask you, Dr. Rosenfarb, because I 
certainly appreciate your efforts to treat the victims of the 
health incidents and to get to the bottom of what happened both 
in Cuba and in China. So I wanted to ask you about an article 
that was recently brought to my attention.
    I understand that the physician who first treated affected 
U.S. personnel was Michael Hoffer, a former military doctor, 
now at the University of Miami. A Time magazine article from 
June 2011 by Dr. Hoffer stated, and I quote:

        ``A U.S. military doctor deployed in Iraq subjected 
        troops suffering from traumatic brain injuries to 
        treatment with an unapproved drug in which he had a 
        financial stake that may have harmed them, Pentagon 
        investigators report.''

    The article goes on to site an extensive Pentagon Inspector 
General report on this incident, and CBS News reported, and I 
quote, that investigators found the study did not use standard 
military concussion assessments on the soldiers, possibly 
resulting in substandard care.
    Doctor, have you reviewed these articles or the report of 
the Inspector General before Dr. Hoffer was brought on to treat 
U.S. Embassy personnel? And have you received these documents 
since then?
    Dr. Rosenfarb. I am aware of some of that. When this 
started to unfold back in early spring 2017, we, members of the 
U.S. Government medical team, reached out initially to Johns 
Hopkins University to try and figure out who would be the best 
placed person to see our personnel.
    If you recall, initially, the thoughts were that this was 
some sort of acoustic attack. The symptoms initially appeared 
to be localized to the acoustic, the ear system. We reached out 
to Johns Hopkins. There was a recommendation to go to Dr. 
Hoffer because of his experience in the military treating brain 
injuries at the University of Miami.
    So the first patients back in April and May 2017 were 
assessed by Dr. Hoffer. Subsequently, when we determined that 
it really probably was not localized to the acoustic system, it 
was more kind of a broader brain injury process, that is when 
we made efforts to find a center of excellence for brain injury 
and repair, and University of Pennsylvania was then identified, 
and patients have gone there since.
    Mr. Engel. But doesn't it seem a bit strange that our 
diplomats suffering from concussion-like symptoms would be sent 
to a doctor who apparently did not use standard concussion 
assessments? Isn't that strange?
    Dr. Rosenfarb. At the time, we felt he was the best 
qualified person, the recommendation we received, to do the 
initial evaluation.
    Mr. Engel. Okay. Thank you.
    If anyone else wants to comment.
    Okay. Thank you very much. I yield back, Mr. Chairman.
    Mr. Cook. Thank you.
    I now recognize the gentleman from Alabama, Congressman 
Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    I have heard words like Socialist, Communist, 
authoritarian, represses and abuses its citizens basic freedoms 
or freedoms that we would take for granted in the United States 
of America. And upon reflection, that sounds a lot like China, 
but here we are talking about Cuba. And I would submit there is 
a major difference, of course, between China and Cuba, and that 
is that China is a significant geopolitical rival, perhaps a 
foe. Certainly, China is having a significant military buildup 
and is threatening in ways that Cuba is not. I would reference 
the South China Sea and what is happening there as but one 
example.
    So with that all as a backdrop, the question is this: 
Should American foreign policy treat Cuba differently than how 
we treat China, with whom we have over $400 billion in trade 
going back and forth? And if we should treat Cuba differently 
than we treat China, why? If not, why not?
    Ambassador Merten, could you please take that first, and we 
will just work our way across to Ambassador Bodde and then Dr. 
Mazanec. And if Dr. Rosenfarb or Mr. Brown want to chime in 
too, that would be fine, but I don't know if this is an area of 
expertise for you.
    Ambassador Merten. Sure. Thanks for the question. I think 
in our analysis, the situation in China regarding our employees 
there compared to the situation in Cuba, they are very 
different. I think we would see them, and Ambassador Bodde can 
speak to this in greater detail, but I think we see them as 
sort of apples and oranges.
    We have 26 cases of people who have very, very similar 
symptoms, who have very similar effects. It seems to have 
really been targeted exclusively at our Embassy colleagues. The 
situation in China, to the best of my knowledge, we have one 
employee who has demonstrated similar symptoms. I don't think 
our medical experts at this point are prepared to say it is the 
exact same situation that our colleagues in Cuba have been 
subjected to. So I think there is a fundamental difference we 
see, at this point anyway, in the cases.
    I will let my other colleagues talk.
    Mr. Brooks. Well, perhaps my question wasn't clear. While 
certainly dozens of Americans suffering some kind of injury 
that we have not been able to define as to cause, it has to be 
something taken into account. I am thinking of a much bigger 
question, and the question is America's relationship with China 
versus relations with Cuba, the nature of the government, the 
repression of rights, Communists, Socialists, whatever 
adjectives you want to use.
    So should we treat Cuba any different than we treat China? 
Because it seems that we treat China in a very favorable way 
relative to how we as Americans treat Cuba.
    Ambassador Merten. Again, sir, you know, I am familiar with 
the case, our dealings with China, only as far as they touch 
this case. I have never served in China. I am not an expert. I 
am not an expert on East Asia. My experience in our dealings 
with China is limited really to this case mostly, and I don't 
see, because we see them as very different cases, that you can 
really make a comparison.
    I don't disagree with you that China is a competitor 
certainly in the region. They are doing some things that we 
don't find necessarily a positive in the region, but I think, 
you know, in terms of our discussion with Cuba on this issue 
that we have been talking about thus far here today, I can't 
really say any more than I have already said.
    Mr. Brooks. Well, does anyone have an opinion on how we 
should be treating Cuba, given the way in which we treat other 
geopolitical rivals? It could be China. It could also be 
Russia. It could be any number of nations.
    Ambassador Bodde, do you?
    Ambassador Bodde. Sir, that is really outside my area of 
expertise. My feeling is that Ambassador Merten has made it 
clear. For this particular incident, we see them as two 
separate entities. In terms of how we treat Cuba, that is 
really a question of our overall Cuba policy.
    Mr. Brooks. All right. Let me drop the comparison then. 
Should we treat Cuba more friendly or more harshly?
    Ambassador Bodde. I defer to my colleague from WHA for 
that.
    Ambassador Merten. I mean, I think we always have to 
evaluate our relations with countries based on the whole of our 
relationship. We have a long history over these past many years 
with Cuba. We have a large expat group from Cuba who lives in 
this country, many of whom experienced firsthand the 
depredations of the Cuban regime. They have made those their 
concerns and their interests very clear, not only to us at the 
State Department, but I am sure also to many of you here in 
Congress. Again, I am not an expert on Asia. I can't speak to 
the details.
    Mr. Brooks. I wasn't asking about Asia. My question was 
strictly limited to Cuba.
    Ambassador Merten. But I think, you know, we have a policy 
on Cuba, which was dictated by the National Security 
Presidential Memorandum. We are enacting that policy. We 
believe it is appropriate. We believe it is correct. We believe 
we are doing the best we can to hold the Cuban regime 
accountable for lack of democracy and human rights abuses.
    Mr. Brooks. Thank you, Mr. Chairman.
    Mr. Cook. Thank you very much.
    I now recognize the ranking member, Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman.
    If we are promoting democracy in Cuba, we are trying to, 
why are we cutting some of these programs that provide money to 
the Cuban democracy effort?
    Ambassador?
    Ambassador Merten. Thanks for the question. First of all, 
as I noted in my opening comments, we are seeking to promote 
human rights and democracy in Cuba. We have been asked to do 
that by the NSPM. I will not pretend that the reduction in our 
staffing has made that task easier. It has not. Nevertheless, 
we believe we can remain engaged with human rights activists 
and pro-democracy activists in Cuba.
    In terms of funding specifically, as I understand it, there 
has been a global cut in these types of funding, so we haven't 
singled out Cuba in particular. But this very much remains a 
priority for our colleagues at the Embassy and for us at the 
State Department.
    Mr. Sires. You know, I wanted to add that maybe we treat 
Cuba differently because--I am sorry but my colleague left--
they were actually putting nuclear weapons 90 miles away from 
Florida, and they have 30,000 people, 30,000 people in 
Venezuela controlling security apparatus in Venezuela. Now they 
have people in Nicaragua that are now starting to control the 
Nicaragua people. I just had a group of Nicaraguans in my 
office telling me that the people that were doing the torturing 
were the Cubans. And he was able to come to the United States 
and now he is going to be a voice for Nicaragua.
    So there is a long history here of a lot of things that 
this regime has been wanting to destroy this country and many 
of its efforts. They have been players in many other places.
    The other question that I have, you have a list of 180 
entities associated with the Cuban military that you have that 
the State Department maintains. Are you considering updating 
that list? Because one of the things that I know, that the 
money that comes from Cuba basically is through tourism, but 
now the tourism has been taken away and put under the military. 
So, basically, tourism money goes to the military. So are you 
updating the list? And what has the effect been of this 
restricted list to the Cuban economy engagement?
    Ambassador Merten. Sure. Yes, the list is a living 
document. The list wasn't put together and closed. We review it 
periodically with our interagency partners based on new 
information that we get.
    I agree with you, the goal behind the Cuba restricted list 
that you are talking about was to do our utmost to ensure that 
elements of the Cuban state, particularly the ministry of 
defense, the Cuban military, wasn't benefiting or profiting 
from particularly American tourists that are American people 
that happen to be visiting Cuba for a variety of reasons.
    So we hope to be channeling their activities in Cuba to the 
private sector, to B&Bs, that type of thing, small family 
private-sector run operations and, therefore, depriving the 
Cuban military of a source of income. I am not aware that we 
have done a quantitative analysis of the effect of that thus 
far. It is something we should probably do, but our belief is 
that it will have an impact on denying funding that would 
otherwise go to the Cuban state.
    Mr. Sires. Thank you. This program that we had with doctors 
that the Cuban Government uses to send to different countries 
in lieu of payment to Cuba, some of these doctors have asked 
for asylum in some of these places. That program is gone, isn't 
it?
    Ambassador Merten. I am not aware, sir. I can't answer 
that. I will have to take that back and get you an answer.
    Mr. Sires. Ambassador, do you know if it is gone, that 
program?
    Ambassador Bodde. I am sorry, sir. I am not aware. We will 
have to take that back and get an answer.
    Mr. Sires. Anybody that is aware of this? Because there 
used to be doctors that would ask for asylum and we would grant 
it to them.
    Ambassador Merten. I don't know that we have granted any 
asylum cases. I will have to go check on that.
    Mr. Sires. Lately, you mean?
    Ambassador Merten. I don't know that we ever have. I do 
know that there have been Cuban doctors who have been present 
in a number of countries. I was a master in Haiti. There were a 
number of Cuban doctors who were present there. I am not aware 
that any of them, certainly while I was there, ever asked for 
asylum, but, again, we will look into that and get an answer 
back to you.
    Mr. Sires. Okay. Thank you. Thank you, Chairman.
    Mr. Cook. Thank you.
    I recognize the gentleman from Florida, Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman. Gentlemen, I appreciate 
you all being here.
    I am from Florida. I represent the Third Congressional 
District, and we have gone down to Miami often to meet with the 
Cuban American population. And I want to build on that question 
that my colleague, Mr. Sires, brought up about the 180 
individuals. That was a question that they brought up, so if 
you can get us that information of the individuals or 
businesses in Cuba that are blocked from doing business with 
the U.S., that would be very helpful so that we can put 
pressure on the appropriate entities and help make that come to 
fruition. And can you provide an update of where things stand 
regarding U.S. property claims?
    Ambassador Merten. Sure. And we can get you that list, I 
believe, of Cuban entities that are on the list. If you or any 
of your colleagues or constituents are aware of other entities 
you believe----
    Mr. Yoho. We have some.
    Ambassador Merten [continuing]. Please send that on to us.
    Mr. Yoho. We will send that on to you.
    Ambassador Merten. We will investigate and have a look.
    Regarding property claims, this has been one of our chief 
issues in terms of dealing with the Cuban Government. There are 
a lot of people who are now living in the United States, who 
have had property expropriated by the Cuban Government. We have 
laws, I believe, if I am not mistaken, under the Libertad Act, 
to punish folks who were caught trafficking in such properties. 
And certainly it is a major issue in terms that we want to see 
resolved with the Cuban Government.
    Mr. Yoho. Well, and this goes back to poor foreign policy. 
We should never have gone down this road without having this 
stuff worked out in the very beginning from the previous 
administration. To open up, you know, travel and going in there 
like everything is okay without having these things negotiated 
was a big, big mistake and a failure in foreign policy.
    I have got people from Florida and all over the United 
States, basically, that had businesses down there, they have 
ports, cruise ships are going in there, and there are family 
ports that these families got their property confiscated from, 
and the Cuban Government's making a ton of money off of this 
illegal property. And for us to open up the borders or open up 
negotiations and relationships with them without having this 
worked out in the beginning was a terrible mistake in foreign 
policy, and this is something now we are trying to reel back. 
And once you let the toothpaste out of the tube, it is hard to 
get it back in and, unfortunately, we are here.
    So how do you move forward from this point? I mean, you 
look at the situation of the Cuban people today, they are no 
better off than they were 30 years ago, are they? Anybody want 
to claim they are? No.
    And so we are trying to build a democracy, and I am all for 
Radio Marti. We have been down to Miami, we have seen the 
broadcast studio, we have done interviews down there, and it is 
a great, it is a great tool to spread the message of liberty 
and freedom, which everybody in the world really wants and 
desires, yet you have got a Communist regime in there that is 
just not allowing that. So we can give pockets of that, and I 
think we should continue to do that, but boots on the ground. I 
think we need to relook at how we do things down there.
    Does anybody have any ideas of what would be outside of the 
box that you are able to talk about?
    Ambassador Merten. Sir, I would be happy, my colleagues 
from the Cuba desk, would be happy to have some discussions 
with you. I am not going to speculate here on possible policy 
avenues. I don't think it would be appropriate for me to do 
that.
    Mr. Yoho. Anybody else here? No? No takers.
    Okay. How about vacancies at the State Department? I know 
it was talked about a little bit, the lack of the confirmed 
leadership at the State Department impacted by State 
Department's response to the targeted attacks in Havana. Where 
are we at with the people that should be put into place and 
they are being held up or not being confirmed?
    Ambassador Bodde. Sir, I am chairman of the ARB. We looked 
at this very issue, and one of the things we found when we were 
looking at it was that virtually everyone involved in 
responding to this crisis was acting in an acting capacity. It 
was the view of the Accountability Review Board that perhaps 
might have slowed down the response, that people didn't feel 
they had the necessary authorities to do the jobs they had to 
do. That is one of the recommendations the Accountability 
Review Board made.
    Mr. Yoho. Okay. And then let me just touch on the doctors 
in Cuba. President Obama, I thought, did us a great favor by 
getting rid of the wet-foot/dry-foot policy. We have got people 
down in, again, Florida. We saw the refugees coming over in 
boats, but when he got rid of the wet-foot/dry-foot policy, 
that virtually stopped.
    And I thought he did that for the betterment of America and 
keeping the Cubans safe from crossing that strait, but what we 
found out, he did that to appease the Castro regime, to keep 
his doctors from coming over here. Because the doctors that 
they farm out to the rest of world bring in about $18 billion 
of revenue to the Cuban Government. So he did this to better 
off the Cuban Government, not the Cuban people or our foreign 
policy, and I think it is another shameful thing that that 
administration did.
    And with that, I yield back. Thank you.
    Mr. Cook. Thank you.
    Congresswoman Kelly.
    Ms. Kelly. Thank you, Mr. Chair.
    Ambassador Merten, when President Trump announced his 
intent to cancel President Obama's deal with Cuba, one of the 
stated aims of his new approach was to support the Cuban 
people. The policy curbed travel to and trade with Cuba and 
almost immediately the impact was clear: Cancellations at 
private bed and breakfast, restaurants that were accustomed to 
flocks of foreign patrons now empty, large tour groups set to 
hire a private classic car chauffeur service began receiving 
cancelations of their contracts.
    Of President Trump's rhetoric and restrictive travel, 
regulations resulted in ambiguity, I would say, that caused 
U.S. travel to Cuba to drop by as much as 40 percent in the 
first part of 2018. Less independent travel means less revenue 
for Cuba's entrepreneurs who have risked so much for the chance 
to determine their economic future, many of which catered to 
those U.S. travelers. One restauranteur quoted by The 
Washington Post cites a 70 percent dip in business compared 
with the year prior.
    The stated intent of the policy was to help the Cuban 
people, but they don't feel supported. And you kind of have 
been asked this before, but what changes do you plan to enact 
to carry out the policy stated intent to truly help the Cuban 
people?
    Ambassador Merten. Thank you for the question. As I 
mentioned in my opening remarks, the NSPM not only reaffirms 
our embargo on Cuba, but also maintains the statutory ban on 
tourism. People who go to Cuba under one of the broad licenses 
given by the Treasury Department are not really, strictly 
speaking, supposed to be there as tourists.
    Our goal is to deny the Cuban regime, particularly the 
Ministry of Defense and Cuban military, a stream of revenue 
that they had had before. There may be some collateral effect 
of this in that fewer people may be going, and fewer people 
going means less business to some of these private sector 
entities, which we certainly do want to see helped and we do 
want to see them thrive. But in an economic system where the 
incentives are, for lack of a better term, corrupted as they 
are in Cuba because you have the state which is really involved 
in virtually every aspect of the economy, it is hard to do both 
of those things simultaneously.
    So I understand your concern, but I hope I have explained 
the policy point on that.
    Ms. Kelly. I understand it is hard to do both at the same 
time. But I guess in a way it seems like, at least for a little 
while, there was some economic development, people were more 
than surviving but thriving, and now, we pulled that back. So I 
wonder how we look in their minds also.
    You said in your statement that the Cuba Internet Task 
Force should be receiving a report by late summer, so I assume 
any day now. What are the Cuban Government's plans for 
expanding internet access?
    Ambassador Merten. We have had some discussions on this. 
Obviously, from our point of view--I shouldn't say obviously--
from our point of view, one of the key tools that the regime 
has used against the Cuban people is control of information. 
And one of our goals is to increase internet penetration in 
that society. We believe this will ultimately be not only to 
the good of the Cuban people but to the good of society at 
large, which will expose them to a world that doesn't have 
controlled information.
    So we're going to continue to beaver away at this. This is 
not going to be an area where we are going to see success from 
today to tomorrow. But I think, you know, constant pressure on 
them from us, from other partners, and increasing demands from 
the Cuban people will be able to see us over time, see some 
success in this area.
    Ms. Kelly. You are scheduled to complete your work by June 
2019 with this. Is there any danger that another country can 
step in and take advantage where we haven't been able to step 
in?
    Ambassador Merten. You know, you have about exceeded my 
knowledge on this particular subject. I am happy to take that 
back and get back to you with an answer, but I don't want to 
mislead you.
    Ms. Kelly. Thank you. I yield back.
    Mr. Cook. Thank you.
    Mr. Wilson, 2\1/2\ minute question, then we are going to 
adjourn.
    Mr. Wilson. My goodness. Well, thank you, Chairman Cook.
    And, Secretary Merten, I am really grateful that I see a 
bipartisan concern here, Congressman Sires and Congressman 
Yoho, and that is the relationship that exists between the 
Cuban people and their government, and in particular, the 
economic system where the Cuban military actually controls a 
phenomenal percentage of whatever enterprises. We didn't call 
them businesses. What percentage does the military control?
    Ambassador Merten. I don't know that off the top of my 
head, sir. We can get back to you on that.
    Mr. Wilson. It was my understanding it was a very high 
percentage and that whatever funding goes to the enterprise 
actually is to benefit the Cuban military and the oppression of 
the people of Cuba, not for what would be perceived as 
possible.
    Also, in Cuba, when American tourists go there or tourists 
from around the world who have always gone there, they have 
never been barred from visiting the totalitarian state. But the 
people who are at the enterprises, like a resort, a hotel, or 
whatever, have confiscated property from somebody else--what 
currency are the workers paid? Are they paid in Cuban currency 
or are they paid in U.S. dollars, or do they receive some type 
of script?
    Ambassador Merten. I may be wrong, sir, I can remember back 
in the 1990s, they used to be paid in dollars, but I believe 
that has changed. They are now paid in some sort of Cuban 
currency, I believe.
    Mr. Wilson. And it is really not a currency that can be 
used anywhere except at the company store, again, to keep the 
people oppressed. And it is really sad to me that anyone who 
would go there would think that they might be promoting some 
level of freedom and democracy when they are not.
    A final question. Dr. Mazanec, in regard to your written 
testimony, ordering the personnel to be moved from Havana, is 
that still your view that that was correct to do, in light of 
the attacks?
    Mr. Mazanec. Thank you, sir. So that was one of the 
preliminary observations we had in terms of the way the State 
Department has had to respond. Because of the unknown nature of 
the incidents, they have had to mitigate risks. And you are 
correct, one of the ways they did so was by the order of 
departure and then the reductions that were made permanent this 
spring. I think that is something that we will continue to look 
into as we complete our ongoing work and evaluate the response.
    Mr. Wilson. We appreciate all of your service. Thank you.
    Thank you, Mr. Chairman.
    Mr. Cook. Real quick, Mr. Espaillat, I will give you 1\1/2\ 
minutes, and then we are going to adjourn to the SCIF for the 
classified setting. And you can have 10 minutes, sir.
    Mr. Espaillat. A GAO report and an Accountability Review 
Board report also referred to the events in Cuba as incidents. 
Ambassador Merten, was this an incident or an attack, one of 
the two?
    Ambassador Merten. I think the State Department and 
Secretary Tillerson have come to the belief that what happened 
in Cuba is an attack, because all the information we have seen 
is that it seems to be targeted specifically at our Embassy and 
one other Embassy that we know of, Canada's, employees, 
diplomats.
    Mr. Espaillat. Ambassador Bodde, incident or attack?
    Ambassador Bodde. The State Department has come to the 
position that they were attacked, sir.
    Mr. Espaillat. Dr. Rosenfarb, an incident or attack?
    Dr. Rosenfarb. I agree with Ambassador Bodde.
    Mr. Espaillat. Mr. Brown?
    Mr. Brown. I put in the category of attack based on we have 
26 injured Americans. Those attacks do not seem to extend 
outside the diplomatic community.
    Mr. Espaillat. Dr. Mazanec, an incident or an attack?
    Mr. Mazanec. Sir, we deferred and used the language that 
the State Department did in our report. But I think this issue 
emphasizes the importance of the Department addressing some of 
the communication challenges we identified so they can make 
these determinations as promptly as possible.
    Mr. Espaillat. Thank you, Mr. Chairman. I yield back my 
time.
    Mr. Cook. Thank you.
    Real quick, pursuant to committee rule 7, the members of 
the subcommittee will be permitted to submit written statements 
be included. Without objection, the hearing record will be open 
for 5 business days to allow statements and other things.
    We are going to adjourn down to the SCIF. It will be upon 
conclusion of votes.
    This meeting is adjourned. Thank you.
    [Whereupon, at 3:10 p.m., the subcommittee was adjourned.]

   
                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
